No.
In the

Supreme Court of the United States
Congregation Rabbinical College
of Tartikov, Inc., et al.,
Petitioners,
v.
Village of Pomona, N.Y., et al.,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Second Circuit

PETITION FOR A WRIT OF CERTIORARI
Joseph A. Churgin
Donna C. Sobel
Savad Churgin
55 Old Turnpike Road,
Suite 209
Nanuet, New York 10954
(845) 624-3820

John G. Stepanovich
Counsel of Record
James M. Henderson, Sr.
Of Counsel
Stepanovich Law, PLC
618 Village Drive, Suite K
Virginia Beach, Virginia 23454
(757) 410-9696
john@stepanovichlaw.com

Roman P. Storzer
Storzer & A ssociates, P.C.
1025 Connecticut Avenue NW,
Suite 1000
Washington, DC 20036
(202) 857-9766
Counsel for Petitioners
296576

A
(800) 274-3321 • (800) 359-6859

i
Question Presented
W hen it enacted the Religious Land Use and
Institutionalized Persons Act (“RLUIPA”), 42 U.S.C.
§§ 2000cc, et seq., Congress created a cause of action
allowing a claimant to “obtain appropriate relief against
a government.” Id. § 2000cc-2(a). Congress expressly
directed that standing “to assert a claim” “shall be
governed by the general rules of standing under article III
of the Constitution.” Id. The Second Circuit below, as have
the Third, Sixth, and Ninth Circuits, looked beyond those
general rules of standing under Article III, and, relying
on other considerations, concluded that the Petitioners
lacked standing to assert RLUIPA claims arising under
the Substantial Burdens provision of the Act, 42 U.S.C. §
2000cc(a), as well as claims arising under the Fair Housing
Act (“FHA”) and the Free Exercise Clause of the First
Amendment. In doing so, the Second Circuit entered
a decision in conflict with decisions of the First, Fifth,
Seventh, and Eleventh Circuits.
The question presented is:
Whether, under RLUIPA’s Substantial Burdens
provision, an owner of real property seeking to use such
property for religious exercise has Article III standing
to challenge a municipality’s zoning law that prohibits
outright the owner’s proposed land use without first being
required to either apply for permits or variances that the
municipality has no power to grant or to seek a legislative
change to the zoning law from the municipality?

ii
Parties to the Proceedings
in the Second Circuit
In the court below, the Defendants-Appellants-Cross
Appellees were Village of Pomona, N.Y., (“Village”
or “Pomona”), the Board of Trustees of the Village of
Pomona, N.Y., Ian Banks, as Trustee and in his official
capacity, Alma Sanders-Roman, as Trustee and in her
official capacity, Rita Louie, as Trustee and in her official
capacity, Brett Yagel, as Trustee and in his official
capacity, and Nicholas L. Sanderson, as Mayor. The
Plaintiffs-Appellees-Cross Appellants were Congregation
Rabbinical College of Tartikov, Inc, (“Tartikov”), Rabbi
Mordechai Babad, Rabbi Wolf Brief, Rabbi Herman
Kahana, Meir Margulis, Rabbi Meilech Menczer, Rabbi
Jacob Hershkowitz, Rabbi Chaim Rosenberg, and Rabbi
David A. Menczer.

iii
Rule 29.6 Corporate
Disclosure Statement
Pursuant to Rule 14.1(b)(ii) and Rule 29.6 of the Rules
of the Supreme Court, Petitioner Tartikov discloses that
it has no parent corporation and that no publicly held
corporation owns 10% or more of its stock.

iv
List of All Proceedings
1. U.S. District Court for the Southern District of
New York, Congregation Rabbinical Coll. of Tartikov, Inc.
v. Vill. of Pomona, 07–CV–6304 (KMK), Docket No. 53,
January 4, 2013.
2. U.S. District Court for the Southern District of
New York, Congregation Rabbinical Coll. of Tartikov, Inc.
v. Vill. of Pomona, 07–CV–6304 (KMK), Docket No. 207,
September 29, 2015.
3. U.S. District Court for the Southern District of
New York, Congregation Rabbinical Coll. of Tartikov, Inc.
v. Vill. of Pomona, 07–CV–6304 (KMK), Docket No. 333,
December 7, 2017.
4. U.S. Court of Appeals for the Second Circuit,
Congregation Rabbinical Coll. of Tartikov, Inc. v. Vill. of
Pomona, NY, Case 18-869, Documents 242-243, December
20, 2019.
5. U.S. Court of Appeals for the Second Circuit,
Congregation Rabbinical Coll. of Tartikov, Inc. v. Vill. of
Pomona, NY, Case 18-869, Document 262, February 6,
2020.

v
TABLE OF CONTENTS
Page
Question Presented . . . . . . . . . . . . . . . . . . . . . . . . i
Parties to the Proceedings in
	the Second Circuit  . . . . . . . . . . . . . . . . . . . . . ii
Rule 29.6 Corporate Disclosure
Statement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  iii
List of All Proceedings  . . . . . . . . . . . . . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . vii
TABLES OF AUTHORITIES . . . . . . . . . . . . . . . . . . .  viii
PETITION FOR A WRIT OF CERTIORARI . . . . . . . 1
Citations of Opinions and Order  . . . . . . . . . 1
Concise Statement of Jurisdiction  . . . . . 1
C onstitutional P rovisions ,
Treaties, Statutes, Ordinances,
	and Regulations Involved . . . . . . . . . . . . . 2
Concise Statement of the Case . . . . . . . . . . 2
S tatement of the B asis for
Federal J urisdiction in the
District Court . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

vi
Table of Contents
Page
Reasons for Granting the Writ . . . . . . . . . . 8
Review is Warranted Because The Court
Below Has Entered a Decision in Conflict with
the Decisions of Other United States Courts
of Appeal on the Same Important Matter . . . . . 11
Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

vii
TABLE OF APPENDICES
Page
A ppendi x A — opinion of the
united states court of appeals
FOR THE SECOND CIRCUIT, DATED
DECEMBER 20, 2019 . . . . . . . . . . . . . . . . . . . . . . . . . 1a
Appendix B — OPINION & ORDER of
the UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF
NEW YORK, FILED DECEMBER 7, 2017 . . . . . 92a
Appendix C — opinion and order of
the united states district court
for the southern district of
	new york, filed september 29, 2015 . . 233a
A ppendix D — OPINION AND ORDER
of the UNITED STATES DISTRICT
COURT FOR THE SOUTHERN DISTRICT
OF NEW YORK, FILED JANUARY 7, 2013 . . . 408a
Appendix E — DENIAL OF REHEARING
of the united states court of
appeals FOR THE SECOND CIRCUIT,
	filed february 6, 2020 . . . . . . . . . . . . . . . . . 536a
A ppendi x f — relevant
CONSTITUTIONAL AND statutory
	provisions  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 538a

viii
TABLE OF CITED AUTHORITIES
Page
Cases
Abbott Labs. v. Gardner,
387 U.S. 136 (1967)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Church of Our Lord & Savior Jesus Christ v.
City of Markham, Illinois,
913 F.3d 670 (7th Cir. 2019)  . . . . . . . . . . . 10, 11, 24, 27
Cohens v. Virginia,
6 Wheat. 264 (1821) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Colorado River Water Conservation Dist. v.
United States,
424 U. S. 800 (1976) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Columbia Broad. Sys. v. United States,
316 U.S. 407 (1942)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Congregation Anshei Roosevelt v. Planning &
Zoning Bd. of Borough of Roosevelt,
338 F. App’x 214 (3d Cir. 2009)  . . . . . . . . . . . 10, 12, 31
Dougherty v. Town of N. Hempstead Bd. of
Zoning Appeals,
282 F.3d 83 (2d Cir. 2002) . . . . . . . . . . . . . . . . . . . . . . 19
Grace Community Church v. Lenox Township,
544 F.3d 609 (6th Cir. 2008) . . . . . . . . . . . . . . . . . . . . 23

ix
Cited Authorities
Page
Guatay Christian Fellowship v.
Cty. of San Diego,
670 F.3d 957 (9th Cir. 2011)  . . . . . . . . . . . 10, 11, 25, 26
Herrington v. County of Sonoma,
857 F.2d 567 (9th Cir. 1988) . . . . . . . . . . . . . . . . . . . . 28
Knick v. Twp. of Scott, Pennsylvania,
139 S. Ct. 2162 (2019)  . . . . . . . . . . . . . . . . . . . . . .  16, 17
Lujan v. Defenders of Wildlife,
504 U.S. 555 (1992) . . . . . . . . . . . . . . . . . . . . . . . .  13, 14
MacDonald, Sommer & Frates v. Yolo Cnty.,
477 U.S. 340 (1986)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
Midrash Sephardi, Inc. v. Town of Surfside,
366 F.3d 1214 (11th Cir. 2004)  . . . . . . . . . . . . . . passim
Miles Christi Religious Order v.
Twp. of Northville,
629 F.3d 533 (6th Cir. 2010) . . . . . . . . . . . . . . . . passim
Murphy v. New Milford Zoning Comm’n,
402 F.3d 342 (2d Cir. 2005) . . . . . . . . . . 19, 25, 29, 31
Nasierowski Bros. Inv. Co. v. City of Sterling
Heights,
949 F.2d 890 (6th Cir. 1991) . . . . . . . . . . . . . . . . . . . . 19

x
Cited Authorities
Page
Nat’l Org. for Marriage, Inc. v. Walsh,
714 F.3d 682 (2d Cir. 2013) . . . . . . . . . . . . . . . . . . . . . 13
Opulent Life Church v.
City of Holly Springs, Miss.,
697 F.3d 279 (5th Cir. 2012) . . . . . . . . . . . . . . . . passim
Raines v. Byrd,
521 U.S. 811 (1997)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Roman Catholic Bishop v. City of Springfield,
724 F.3d 78 (1st Cir. 2013)  . . . . . . . . . . . . . . . . . passim
Simon v.
Eastern Ky. Welfare Rights Organization,
426 U.S. 26 (1976)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Sprint Communications, Inc. v. Jacobs,
571 U.S. 69 (2013)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Steel Co. v. Citizens for Better Environment,
523 U.S. 83 (1998) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Temple B’Nai Zion, Inc. v.
City of Sunny Isles Beach, Fla.,
727 F.3d 1349 (11th Cir. 2013)  . . . . . . . . . 10, 12, 25, 30
Tree of Life Christian Sch. v.
City of Upper Arlington,
536 F. App’x 580 (6th Cir. 2013) . . . . . . . . . . . . . . . . . 24

xi
Cited Authorities
Page
Triple G Landfills, Inc. v. Bd. of Comm’rs,
977 F.2d 287 (7th Cir. 1992) . . . . . . . . . . . . . . . . . . . . 21
Warth v. Seldin,
422 U.S. 490 (1975) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Williamson Cnty. Reg’l Planning Comm’n v.
Hamilton Bank,
473 U.S. 172 (1985)  . . . . . . . . . . . . . . . . . . . . . . . passim
Yee v. City of Escondido,
503 U.S. 519 (1992)  . . . . . . . . . . . . . . . . . . . . . . . . 22, 30
Statutes and Other Authorities
Article I of the United States Constitution . . . . . . . . . . . 2
Article III of the United States Constitution . . . . passim
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 1331  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
28 U.S.C. § 1343(3) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
28 U.S.C. § 1343(4) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
28 U.S.C. § 1367(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
28 U.S.C. § 2201  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

xii
Cited Authorities
Page
28 U.S.C. § 2202 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
42 U.S.C. § 1983  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
42 U.S.C. § 2000cc(a)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . 20
42 U.S.C. § 2000cc(b)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . 20
42 U.S.C. § 2000cc(b)(2) . . . . . . . . . . . . . . . . . . . . . . . . . . 20
42 U.S.C. § 2000cc-2(a)  . . . . . . . . . . . . . . . . . . . . . . . . 9, 15
42 U.S.C. § 2000cc-5(7)(B) . . . . . . . . . . . . . . . . . . . . . . . .22
42 U.S.C. § 3513(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
42 U.S.C. § 2000cc  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
13B Wright & Miller, Federal Practice & Procedure
§ 3532.1.1  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Village of Pomona Code § 130-9 . . . . . . . . . . . . . . . . . . . . 5
Village of Pomona Code § 130-28(D) . . . . . . . . . . . . . . . . 6
Village of Pomona Code § 130-10(F)  . . . . . . . . . . . . . . . . 6

1
PETITION FOR A WRIT OF CERTIORARI
Tartikov, Rabbi Mordechai Babad, Rabbi Wolf Brief,
Rabbi Herman Kahana, Meir Margulis, Rabbi Meilech
Menczer, Rabbi Jacob Hershkowitz, Rabbi Chaim
Rosenberg, and Rabbi David A. Menczer respectfully
petition for a writ of certiorari to review the judgment of
the United States Court of Appeals for the Second Circuit
in this case.
Citations of Opinions and Order
The opinion of the court of appeals (Petitioners’
Appendix (“App.”) infra, 1a-91a) is reported at 878 F.3d
488. The district court’s opinion granting judgment
after trial to the petitioners (App. 92a-232a) is reported
at 280 F. Supp. 3d 426. The district court’s decision on
cross-motions for summary judgment (App. 233a-407a)
is reported at 138 F. Supp. 3d 352. The district court’s
decision on the motion to dismiss (App. 408a-535a) is
reported at 915 F. Supp. 2d 574.
Concise Statement of Jurisdiction
The Second Circuit issued its opinion on December
20, 2019. App. 1a-91a. On February 6, 2020, the Second
Circuit denied a petition for rehearing or rehearing en
banc. App. 536a-537a.
On March 19, 2020, this Court entered an Order
extending “the deadline to file any petition for a writ of
certiorari due on or after the date of this order . . . to 150
days from the date of the lower court judgment, order
denying discretionary review, or order denying a timely
petition for rehearing.”

2
This Court has jurisdiction under 28 U.S.C. § 1254(1).
Constitutional Provisions,
Treaties, Statutes, Ordinances,
and Regulations Involved
Relevant provisions of the First and Fourteenth
Amendments of the United States Constitution, of Article
I of the Constitution of the State of New York, of RLUIPA,
and of the FHA are set forth in the appendix. App. 24a,
96a.
Concise Statement of the Case
In 2004, Tartikov purchased approximately 100 acres
of land in Pomona, New York to build a rabbinical college
to train students to become rabbinical judges (dayanim).
App. 24a, 96a. This project is motivated by the sincerely
held religious belief of Tartikov to establish rabbinical
courts, or bais din, and by the sincerely held religious
beliefs of the individual students to become rabbinical
judges to serve in bais din.1 App. 31a. Tartikov’s rabbinical
college will be a Torah community in which students
isolate themselves from outside distractions and devote
themselves to mastering the Code of Jewish Law in order
to become full-time dayanim. App. 31a-32a. Jewish law
requires Tartikov’s students to marry young, to have
large families, to live with their families, and to teach
1. Orthodox Jews use bais din to resolve disputes between
and among them and to provide religious guidance to members
of their community for the religious issues that arise frequently
concerning the proper application of the laws that govern every
aspect of their daily lives. App. 96a.

3
their children the Torah. App. 178a. The rabbinical college
will include housing for students and their families so that
the students can study day and night while meeting their
religious obligations to their families. App. 96a-99a.
In the 2000s, Pomona passed a series of laws
that blocked Tartikov’s ability to build its college (the
“Challenged Laws”). Pomona’s 2004 Law, prohibiting
student family housing 2 and requiring schools to be
accredited, 3 excludes Tartikov’s use completely from the
Village.4 Pomona then passed two additional ordinances
2. Student family housing is necessary because most students
will be married with children, and will need to live on campus
because of the rigor of the program. The Court of Appeals left
these findings undisturbed on appeal. App. 31a-32a, 85a, 98a,
176a-179a, 181a.
3. Neither New York State nor any other accrediting agency
could accredit Tartikov, a requirement under the 2004 Law,
because the school must already be in existence to be accredited.
Thus, Tartikov found itself in a Catch-22 situation; it cannot be
accredited until its facilities exist, and its facilities cannot be built
until it is accredited. App. 100a.
4. Significant evidence confirmed that Pomona targeted
Orthodox Jews by its adoption of the 2004 Law. Such evidence
included Pomona targeting the Orthodox/Hasidic community in
the adjacent Town of Ramapo by opposing the same type of adult
student housing that Pomona’s 2004 Law prohibited on the basis
that such student housing accommodated Orthodox/ Hasidic Jews;
and that the Village Trustees passed a resolution excoriating
public officials “who abdicate their responsibility of office by
placing the politics of special interest groups,” referring to the
Orthodox/Hasidic community, “ahead of the best interest of the
people . . . .” App. 128a-130a, 68a. The Court of Appeals, however,
disagreed with the District Court’s trial findings on that issue.
App. 72a-75a. Instead the Court blamed the Hasidic community
for the hostility directed toward them. App. 67a-68a.

4
in 2007, a law that restricted the amount of building space
devoted to housing students and a “Wetlands Law” that
prohibited access to the property at issue, both of which
also effectively prohibited the rabbinical college use.
Local Law No. 1 of 2007, which amended provisions of the
Dormitory Law originally adopted in 2004, was passed
“during a contentious Board of Trustees meeting” where
Village residents stated their opposition to Tartikov’s
development because it was proposed by Orthodox/Hasidic
Jews. App. 130a.
Village trustees announced their intent to thwart
Tartikov’s plans. In 2007, three Trustees published
campaign materials urging voters to “stand up to
the threat” that Tartikov posed. App. 132a-133a. In a
campaign video, one Trustee warned that the rabbinical
college “could completely change the village and the
make-up of the village.” App. 114a, 133a. Two others
authored a letter to the editor of the local newspaper
calling Tartikov’s proposed residents “homogeneous”
individuals, then intentionally spoliated both a Facebook
post regarding Orthodox/Hasidic Jews as well as text
messages between them about the Facebook post to
prevent Tartikov’s attorneys (and the trial court) from
becoming aware of the evidence. App. 114a, 133a-134a,
268a-272a, 284a-287a. One Trustee stated that Pomona
should “maintain[] its cultural and religious diversity.”
App. 134a.
Tartikov sued the Village in 2007, challenging these
laws together with a 2001 Law that regulated educational
institutions. 5 Tartikov argued in part that Pomona
5. The 2001 Law is not at issue in this Petition.

5
adopted the Challenged Laws because of the Village’s
hostility toward Orthodox Jews.6 Moreover, Tartikov
argued that the Challenged Laws burdened Plaintiffs’
religious exercise in violation of RLUIPA’s Substantial
Burdens provision by prohibiting their religious land use
throughout the Village.7 App. 169a.
Following a ten-day trial, the District Court found
that Pomona had enacted all of the Challenged Laws to
“thwart the development of the rabbinical college because
it was proposed by Orthodox/Hasidic Jews.” App. 226a.
The Court of Appeals affirmed these findings with respect
to both 2007 Laws but reversed with respect to the 2001
Law and 2004 Law. App. 58a-86a.
Tartikov’s Substantial Burden claim derives from
Pomona’s 2004 and 2007 Laws, which completely prohibit
the rabbinical college from existing within Pomona. Under
Pomona’s regulations, a use that is not permitted by its
zoning code may not be established. Village of Pomona
Code § 130-9. Pomona consists of a single zoning district,
the “R-40” district, which permits certain uses by right as
“permitted uses,” and other uses by “special permit.” App.
116a. Uses that are neither permitted uses nor special
permit uses may be allowed with a “use variance” if the
6. Counts 4, 6, 7, 10 and 11 of Tartikov’s Second Amended
Complaint relied on Tar tikov’s discr imination theor ies.
Additionally, Counts 12 and 13 stated claims under the Fair
Housing Act, which were predicated on Tartikov’s discrimination
arguments, but were inexplicably grouped together with its
“burden” claims by the Court of Appeals.
7. Counts 1 and 5 of Tartikov’s Second Amended Complaint
relied on Tartikov’s burden theories.

6
standard for a variance is met. Village of Pomona Code
§ 130-28(D). One element of that standard requires an
applicant for a use variance to prove that there is no other
possible economic use for the property. Pomona admitted
that Tartikov could not meet that standard. App. 117a.
An “Educational Institution” is a special permit use
within the R-40 district. Village of Pomona Code § 13010(F). While the 2004 Law permitted “Dormitories” as
part of an Educational Institution use, it explicitly forbade
family dwelling units as dormitories and dormitory rooms
with separate cooking, dining or housekeeping facilities.
App. 105a-106a. These prohibitions effectively excluded
the rabbinical college. App. 116a-117a. The 2004 Law also
prohibited non-accredited Educational Institutions, which
also excludes the rabbinical college, as described above. Id.
It was undisputed that no application of Pomona’s
regulations could permit Tartikov to build its rabbinical
college. Pomona’s zoning authorities do not “have the
discretion to issue a special use permit . . . .” App. 460a;
see also App. 195a, 210a. Furthermore, Tartikov “cannot
obtain a variance to develop its rabbinical college” because
it does not meet state law requirements for a variance.
App. 117a. Specifically, Tartikov cannot prove that there
is no other economic use for the property. Id. The Court
of Appeals did not address these specific holdings.
Pomona defended by arguing that Tartikov was
required to petition its Board, a legislative body, to
amend its laws before Tartikov’s claims ripened. App.
197a. Additionally, Pomona admitted that the Board of
Trustees is “not required to consider a petition for a text
amendment.” App. 197a. And, if Tartikov had submitted

7
such a petition, that petition would have been heard by the
same Board members who sought and won election on their
promises to stand up to the “threat” of Tartikov and who
passed the 2007 laws to thwart Tartikov from building its
rabbinical college. The text amendment process is not a
“feasible solution” because it would have left Tartikov “at
the mercy of the same body that has a now-proven history
of discriminating against them.” Id.
Because Pomona excluded Tartikov’s rabbinical
college outright through the Challenged Laws, the
District Court held that Tartikov carried its burden of
showing that the Challenged Laws substantially burden
its religious exercise. App. 200a-201a. The District Court
further held that Pomona failed to show both that the
Challenged Laws furthered a compelling governmental
interest and that they were the least restrictive means of
furthering such an interest. App. 201a-202a.
Ignoring the merits of Tartikov’s “burden” claims, in a
one-paragraph discussion, the Court of Appeals reversed
the District Court’s decision and held that Tartikov
lacked standing to challenge the Laws with respect to its
“burden” (and FHA) claims because it had not submitted
“a formal proposal” for its use. App. 55a. The Court of
Appeals ignored the District Court’s findings that no
special permit or variance was available for Tartikov’s
use. App. 117a, 196a-197a. Without addressing the fact
that the rabbinical college was prohibited outright, with
no possibility to obtain a permit, variance, or other relief
under the applicable regulations, the court held that the
harm to Tartikov resulting from the outright prohibition
of its use was “merely conjectural.” App. 55a.

8
As a result of the 2004 Law, Tartikov, its students, and
its faculty remain unable to exercise their religious beliefs
sixteen years after purchasing the property. Pomona
continues to exclude Tartikov’s use of the property. App.
181a-183a.
Statement of the Basis for Federal
Jurisdiction in the District Court
Petitioners invoked the jurisdiction of the District
Court pursuant to 28 U.S.C. §§ 1331, 1343(3) and (4), 42
U.S.C. § 1983, 42 U.S.C. §§ 2000cc, et seq., and 42 U.S.C.
§ 3513(a) to pursue redress for the deprivation of rights,
privileges and immunities secured by the laws and
Constitution of the United States. Petitioners invoked the
jurisdiction of the District Court pursuant to 28 U.S.C.
§§ 2201 and 2202 to obtain their requested declaratory
relief. Petitioners invoked the supplemental jurisdiction
of the District Court pursuant to 28 U.S.C. § 1367(a) to
pursue redress for their claims arising under state law.
Reasons for Granting the Writ
In Sprint Communications, Inc. v. Jacobs, 571 U.S.
69, 77 (2013), this Court stated:
Federal courts, it was early and famously said,
have ‘no more right to decline the exercise of
jurisdiction which is given, than to usurp that
which is not given.’ Cohens v. Virginia, 6 Wheat.
264, 404 (1821). Jurisdiction existing, this Court
has cautioned, a federal court’s ‘obligation’ to
hear and decide a case is ‘virtually unflagging.’
Colorado River Water Conservation Dist. v.
United States, 424 U. S. 800, 817 (1976).

9
In RLUIPA, Congress subjected certain disputes
related to land use regulations and actions by governments
to judicial review in an action brought by “a person”
asserting “a violation of this chapter as a claim . . . .” See
42 U.S.C. § 2000cc-2(a). Further, Congress directed that
a claimant’s standing to sue would be judged by reference
to standing principles under Article III of the United
States Constitution:
Standing to assert a claim or defense under this
section shall be governed by the general rules
of standing under article III of the Constitution.
Id. Congress lacks constitutional power to relieve Article
III courts of their duty to assure themselves that a
claimant satisfies constitutional requisites for standing.
See, e.g., Steel Co. v. Citizens for Better Environment, 523
U.S. 83, 94-95 (1998) (explaining this Court’s independent
duty to assure itself of Article III standing). As this Court
has explained, however, “Congress may grant an express
right of action to persons who otherwise would be barred
by prudential standing rules.” Warth v. Seldin, 422 U.S.
490, 501 (1975) (emphasis added); Raines v. Byrd, 521 U.S.
811, 820 n.3 (1997) (acknowledging that Congress may
“grant a particular plaintiff the right to challenge an Act’s
constitutionality” and, in the process, “eliminate[] any
prudential standing limitations and significantly lessen[]
the risk of unwanted conflict with the Legislative Branch
when that plaintiff brings suit.”).
In the years subsequent to the enactment of RLUIPA,
several of the Circuit Courts have divided into two camps
with respect to their evaluation of the disputed standing of
RLUIPA claimants. In one camp, the First, Fifth, Seventh,
and Eleventh Circuits have concluded that RLUIPA

10
claimants that satisfied Article III considerations had
established their standing to sue under RLUIPA. See
Roman Catholic Bishop v. City of Springfield, 724 F.3d
78, 90-91 (1st Cir. 2013); Opulent Life Church v. City of
Holly Springs, Miss., 697 F.3d 279, 286-88 (5th Cir. 2012);
Church of Our Lord & Savior Jesus Christ v. City of
Markham, Illinois, 913 F.3d 670, 680-81 (7th Cir. 2019);
Midrash Sephardi, Inc. v. Town of Surfside, 366 F.3d 1214,
1223-24 (11th Cir. 2004); Temple B’Nai Zion, Inc. v. City of
Sunny Isles Beach, Fla., 727 F.3d 1349, 1357-59 (11th Cir.
2013). In the second camp, the Second, Third, Sixth, and
Ninth Circuits have concluded that RLUIPA claimants
had failed to establish their standing to sue under
RLUIPA, despite meeting the traditional standards for
Article III standing, by requiring a showing of something
additional8 beyond injury, causation and redressability.
See App. 1a-91a; Miles Christi Religious Order v. Twp.
of Northville, 629 F.3d 533, 537-38 (6th Cir. 2010); Guatay
Christian Fellowship v. Cty. of San Diego, 670 F.3d 957,
979-83 (9th Cir. 2011); Congregation Anshei Roosevelt v.
Planning & Zoning Bd. of Borough of Roosevelt, 338 F.
App’x 214, 218-19 (3d Cir. 2009).
Here, the Second Circuit disregarded its “virtually
unflagging” “obligation” “to hear and decide a case,” thus
departing from both this Court’s clear command and
Congress’ direct grant of jurisdiction over the claims that
the Second Circuit dismissed. In so doing, the Second
Circuit joined the Third, Sixth and Ninth Circuits in
8. These Circuits are varied with respect to what other
administrative, legislative or judicial remedies a plaintiff must
seek—beyond the initial injury—before a claim becomes “ripe”
for review.

11
turning away litigants seeking to assert claims under
RLUIPA by adding additional requirements to satisfy
their assessments of standing.
Worse, disregarding this Court’s instruction and
Congress’ grant, the Second Circuit staked out a standard
for determining one aspect of standing—ripeness—
decidedly at odds with the standards that other Circuit
Courts employ. In so doing, the Second Circuit entered
a decision in conflict with the decisions of other United
States Courts of Appeals. For this reason, the Court
should grant the petition and issue its writ to review the
judgment below.
Review is Warranted Because The Court Below Has
Entered a Decision in Conflict with the Decisions of
Other United States Courts of Appeal on the Same
Important Matter.
Review of the decision below is necessary to resolve
a well-developed split among eight of the Circuit Courts
of Appeals regarding the applicable “ripeness” test for
RLUIPA claims arising in the land use context. The First,
Second, Third, Fifth, Sixth, Seventh, Ninth, and Eleventh
Circuits have divided over the standards applicable to
determining whether a RLUIPA claimant has satisfied
standing requirements. See Roman Catholic Bishop v.
City of Springfield, 724 F.3d 78, 90-91 (1st Cir. 2013); App.
1a-91a; Opulent Life Church v. City of Holly Springs,
Miss., 697 F.3d 279, 286-88 (5th Cir. 2012); Miles Christi
Religious Order v. Twp. of Northville, 629 F.3d 533, 53738 (6th Cir. 2010); Church of Our Lord & Savior Jesus
Christ v. City of Markham, Illinois, 913 F.3d 670, 677-79
(7th Cir. 2019); Guatay Christian Fellowship v. Cty. of

12
San Diego, 670 F.3d 957, 979-83 (9th Cir. 2011); Midrash
Sephardi, Inc. v. Town of Surfside, 366 F.3d 1214, 1223-24
(11th Cir. 2004); Temple B’Nai Zion, Inc. v. City of Sunny
Isles Beach, Fla., 727 F.3d 1349, 1357-59 (11th Cir. 2013).
See also Congregation Anshei Roosevelt v. Planning &
Zoning Bd. of Borough of Roosevelt, 338 F. App’x 214,
218-19 (3d Cir. 2009).
In Tartikov, the Second Circuit decidedly departed
from the standard adopted by Congress for resolution of
the questioned standing of a RLUIPA claimant to assert
claims under Article III of the Constitution. Compounding
its error, the Second Circuit adopted—for purposes of
resolving the question of standing—a standard at odds
with both Congress’ instruction and with the decisions of
other Circuit Courts. The Second Circuit reasoned:
An injury in fact sufficient to confer standing is
‘an invasion of a legally protected interest’ that
is ‘concrete and particularized’ and ‘actual or
imminent, not conjectural or hypothetical.’ . . .
Tartikov’s claims fall into two distinct groups,
each of which asserts a different alleged injury.
...
. . . . Whether Tartikov has standing to pursue
each group of claims turns on whether the
alleged injury is an injury in fact for Article
III purposes.
. . . . Tartikov’s second group of claims . . .
allege[] that the four challenged laws prevent
it from building and operating a rabbinical

13
college on the property and thus interfere with
its religious freedom. Tartikov, however, never
submitted a formal proposal for the building
project, applied for a permit, or engaged in any
other conduct that would implicate or invoke
the operation of the challenged zoning laws.
Whatever harm may arise from the application
of the zoning laws to TRC’s property is merely
conjectural at this time.
App. 53a-55a.
Here, under well-established principles governing
Article III standing, Tartikov unquestionably had
constitutional standing to challenge a law that completely
prohibited its planned religious land use. 9 Article III
of the Constitution limits the authority of the federal
courts to the decision of “cases” and “controversies.”
Lujan v. Defenders of Wildlife, 504 U.S. 555, 559 (1992).
For a dispute to be within the power of a federal court,
9. While the Second Circuit used the term “standing,” it
specifically applied the concept of ripeness. As it had previously
held,
Constitutional ripeness, in other words, is really
just about the first Lujan factor—to say a plaintiff’s
claim is constitutionally unripe is to say the plaintiff’s
claimed injury, if any, is not “actual or imminent,” but
instead “conjectural or hypothetical.”
Nat’l Org. for Marriage, Inc. v. Walsh, 714 F.3d 682, 688 (2d Cir.
2013) (footnote omitted) (citing Lujan). See App. 55a (“Whatever
harm may arise from the application of the zoning laws to TRC’s
property is merely conjectural at this time. We therefore lack
jurisdiction . . . .”).

14
the claimant must have standing—that is, the claimant
must have alleged a sufficient interest in the dispute.
The “irreducible constitutional minimum” of standing
requires a plaintiff to establish three elements: (1) the
plaintiff has suffered a concrete injury; (2) that injury is
fairly traceable to actions of the defendant; and (3) it must
be likely—not merely speculative—that the injury will be
redressed by a favorable decision. Id. at 560-61.
Application of those Article III standing principles
would have satisfied the Second Circuit that Tartikov
possessed the requisite standing for its challenges. The
2004 Law contained an explicit prohibition on student family
housing—an integral component of Tartikov’s planned
rabbinical college—where none previously existed. In
addition, the 2004 Law, which imposed a requirement that
educational institutions must be accredited, bars Tartikov
from building its rabbinical college because Tartikov, as
proposed, cannot be accredited by any accrediting body.
App. 100a (“It cannot be accredited by the Board of
Regents . . . [or] by the Association of Advanced Rabbinical
and Talmudic Schools”).
Tartikov’s injury was therefore both “(a) concrete
and particularized” and “(b) actual or imminent, not
conjectural or hypothetical . . . .” Lujan, 504 U.S. at 560.
The “causal connection between the injury and the conduct
complained of” is also obvious: Pomona’s enactment of the
2004 Law imposed and implemented a heretofore nonexistent prohibition against student family housing. Id.
Finally, it was not only “likely,” but certain that “the injury
[would have been] redressed by a favorable decision,”
as the court could have struck down the 2004 Law’s
prohibition (as the district court did), which would have

15
removed the insurmountable legal obstacle that prevented
the use. Id. (quoting Simon v. Eastern Ky. Welfare Rights
Organization, 426 U.S. 26, 38 (1976)).
Under RLUIPA’s “Cause of Action” provision, all that
is necessary to establish standing is that “irreducible
constitutional minimum” of standing. See 42 U.S.C.
§ 2000cc-2(a) (“Standing to assert a claim or defense
under this section shall be governed by the general
rules of standing under article III of the Constitution”)
(emphasis added). In Abbott Labs. v. Gardner, 387 U.S.
136, 150 (1967), overruled on other grounds by Califano v.
Sanders, 430 U.S. 99 (1977), this Court, quoting Columbia
Broad. Sys. v. United States, 316 U.S. 407, 418-19 (1942),
stated that the issuance of final regulations was a “final
decision” for ripeness purposes because “‘the expected
conformity to them causes injury cognizable by a court
of equity.’”
In concluding that Tartikov was required to “submit[]
a formal proposal for the building project, appl[y] for
a permit, or engage[] in any other conduct that would
implicate or invoke the operation of the challenged zoning
laws[,]”10 the Second Circuit created a fourth, draconian
10. As discussed above, there is no “permit,” “variance,” or
other relief that is available to Tartikov. The only theoretical path
to permitting Tartikov’s use would be to amend or repeal the 2004
Law itself. App. 117a, 197a, 460a. Parsing the court’s statement,
it described three possibilities: “submitt[ing] a formal proposal,”
“appl[ying] for a permit,” or “engag[ing] in any other conduct .
. . .” App. 55a. The first does not exist in a vacuum; a proposal
is “submitted” in the context of a land use application such as a
special permit or variance, neither of which was available in this
case. The second, again, was unavailable, as neither a special

16
prerequisite to establish standing, that a claimant must
petition a legislative body to change a law before it can
claim an “injury” cognizable under Article III.
The Second Circuit’s interpretation of RLUIPA
and Article III standing requirements directly conflicts
with the legal standards enunciated by the First, Fifth,
Seventh, and Eleventh Circuits, while aligning the
Second Circuit with the Third, Sixth, and Ninth Circuits
in largely abandoning Article III standing analysis in a
misguided attempt to avoid exercising the jurisdiction
Congress conferred on them by enacting RLUIPA. As we
explain below, seven of the Circuit Courts have adopted
interpretive rules for standing in RLUIPA cases; together
with the decision below, those Circuits have adopted
two divergent approaches that are hopelessly conflicted.
That substantial disarray in the Circuit Courts over the
standard to be applied in deciding the standing of RLUIPA
claimants begs this Court to intervene to resolve the
conflict.
Stretching this Court’s decision in Williamson Cnty.
Reg’l Planning Comm’n v. Hamilton Bank, 473 U.S.
172 (1985),11 far beyond its original context, the Second,
permit nor a variance would permit Tartikov’s use. The third,
vague statement “engaged in any other conduct” could refer to
nothing other than petitioning the Pomona Board of Trustees for
a text amendment to amend or repeal the 2004 Law, which is what
the Village itself has argued. App. 197a.
11. The “poor reasoning” of Williamson County recently
led the Court to overrule the second “prong” of that decision, that
a landowner was required to avail itself of state remedies for a
taking prior to being considered “ripe” for review. Knick v. Twp.
of Scott, Pennsylvania, 139 S. Ct. 2162, 2174 (2019). That “poor
reasoning” echoes sharply in the Second Circuit’s conclusion

17
Third, Sixth, and Ninth Circuits have staked positions
that are unmoored from the traditional application of
the “injury in fact” requirement of Article III standing,
imposing an atextual obligation to undertake efforts far
exceeding Article III standing principles before federal
courts deign to exercise jurisdiction. As discussed within,
these Circuits, unlike the First, Fifth, Seventh, and
Eleventh Circuits, have subjected RLUIPA claimants, as
a mandatory prerequisite for invoking the jurisdiction
of the federal courts, to the requirement that they have
pursued one or more “variances” or other administrative
applications. And no Circuit has adopted the Second
Circuit’s requirement that a claimant pursue a legislative
remedy before its claim is ripe.
First Circuit: In Roman Catholic Bishop v. City of
Springfield, 724 F.3d 78, 90-91 (1st Cir. 2013), the First
Circuit confronted a RLUIPA claimant, the Catholic
Bishop of Springfield, who asserted that the legislative
designation of a Catholic Church property as a historic
site sufficed to satisfy Article III principles of standing
prerequisite to the Bishop’s RLUIPA challenge to that
historic designation. Id. at 83. In that case, the day
that Tartikov was required to engage in “any other conduct that
would implicate or invoke the operation of the challenged zoning
laws.” App. 55a. Since it is undisputed that the only “conduct”
available to Tartikov was to petition the Village’s legislative body
to repeal or change the 2004 Law—as opposed to seeking a permit
or variance, which might have implicated Williamson County’s
first prong but which the Village admitted was not available to
Tartikov—the reasoning of Knick is equally applicable here. See
id. (“Williamson County was not just wrong. Its reasoning was
exceptionally ill founded and conflicted with much of our takings
jurisprudence.”). The Second Circuit’s requirement of seeking
legislative change prior to having standing to challenge a law is
as illogical as requiring the pursuit of state remedies for a taking.

18
immediately following the legislative enactment of the
designation, the Bishop sued the City of Springfield,
asserting that the disputed historic designation violated
RLUIPA. Id. at 88. When he sued, the Bishop did not have
any pending plan to make changes to the disputed church
property that the Bishop would have been required to
submit to the City for approval. Id at 83.
Directly contrary to the Second Circuit’s decision, the
First Circuit held that the bare legislative act—enacting
a law designating a church as a historic district—sufficed
to confer standing on the Bishop.
To the extent that RCB has argued that the
mere existence of the Ordinance creates a ripe
controversy, we find that its claims are ripe.
With regard to this attack on the enactment of
the Ordinance, RCB has credibly alleged that
the requirement of submitting to the SHC’s
authority presently imposes delay, uncertainty,
and expense, which is sufficient to show present
injury. See Opulent Life Church v. City of
Holly Springs, 697 F.3d 279, 288 (5th Cir.
2012) (considering inability to use property as
intended as a factor in the ripeness inquiry).
Of course, the extent and significance of this
alleged injury is a merits question. For the
purposes of the ripeness inquiry, it is enough
to note that it is self-evidently plausible that
they exist.
....
. . . . Because these challenges rest solely on
the existence of the Ordinance, no further

19
factual development is necessary, and the
Ordinance’s existence does confront RCB with
a ‘direct and immediate dilemma.’ Sindicato
Puertorriqueño, 699 F.3d at 9 (quoting Verizon
New Eng., 651 F.3d at 188).
Roman Catholic Bishop of Springfield, 724 F.3d at 9093. Thus, the First Circuit concluded that the Bishop had
satisfied the Article III requirement of standing, even
before filing any application under the historic zoning
designation, a remedy that was available to the Bishop. Id.
at 90 (“As to the first component of the fitness question,
we conclude that one aspect of RCB’s complaint satisfies
Article III’s case or controversy requirement: specifically,
RCB’s claim that the enactment of the Ordinance itself
burdens RCB’s religious practices and undermines its
religious freedom”). The Bishop’s claim was that the bare,
legislative act of designating a Catholic Church property
as a historic property burdened his (and the Church’s)
religious practices.
Significantly, the First Circuit refused to apply
Williamson County12 to its ripeness analysis:
12. As that court noted:
Like us, other circuits have found that the Williamson
County analysis is sometimes inapposite for nonTakings constitutional challenges to land use decisions.
See, e.g., Dougherty v. Town of N. Hempstead Bd. of
Zoning Appeals, 282 F.3d 83 (2d Cir. 2002) (First
Amendment retaliation claim); Nasierowski Bros.
Inv. Co. v. City of Sterling Heights, 949 F.2d 890, 894
(6th Cir. 1991) (procedural due process claim). But see
Grace Cmty. Church, 544 F.3d at 617-18 (procedural
due process claims are exception to the general
application of Williamson County); Murphy, 402 F.3d

20
[W]e do not rely, as did the district court, on
specialized Takings Clause ripeness doctrine.
In regulatory takings cases, a property owner
must follow the procedures for requesting the
applicable zoning relief, and have its request
denied, before bringing a claim in court.
Williamson Cnty. Reg’l Planning Comm’n v.
Hamilton Bank, 473 U.S. 172, 190-91, 105 S. Ct.
3108, 87 L. Ed. 2d 126 (1985). But the Supreme
Court has stated that this requirement ‘is
compelled by the very nature of the inquiry
required by the Just Compensation Clause.’
Id. at 190, 105 S.Ct. 3108; see 13B Wright &
Miller, Federal Practice & Procedure § 3532.1.1
(describing takings cases as comprising
‘[a] special category of ripeness doctrine’).
Specifically, regulatory takings inquiries focus
on the economic impact of a regulation on
the subject property, and that impact is only
apparent once there is a final zoning decision.
724 F.3d at 91-92 (emphasis added). In this respect,
Roman Catholic Bishop evinces the First Circuit’s
faithful application of RLUIPA’s stated scope of coverage.
Every substantive provision of RLUIPA’s land use
provisions applies both to the “implement[ation]” of
land use regulations and to their “impos[ition].”13 Thus,
at 350-51 (applying Williamson County to RLUIPA
and First Amendment free exercise claims).
724 F.3d at 92 n.12.
13. See 42 U.S.C. § 2000cc(a)(1) (“No government shall
impose or implement a land use regulation . . . .”) (emphasis
added); id. § 2000cc(b)(1) (same); id. § 2000cc(b)(2) (same); id. §
2000cc(b)(3) (same).

21
for example, Congress prohibited governments from
“imposing” or “implementing” land use regulations in
a manner that substantially burdens religious exercise
unless the burden furthers a compelling government
interest by the least restrictive means possible. “Imposing”
a land use regulation, by its ordinary and natural meaning,
would include the act of enacting such a regulation, and
“implementing” that land use regulation would encompass
all of the executive actions taken to enforce the regulation.
In some lower courts, the prohibition on “imposing”
regulations disappears in an interpretative debacle that
makes “impose” the identical twin of “implement.” The
consequence of that strained and narrow reading by other
Circuit Courts, as described below, is that the substantive
provisions of RLUIPA are judicially narrowed, leaving
claimants without the statutory protections Congress
intended.
Fifth Circuit: In Opulent Life Church v. City of Holly
Springs, Miss., 697 F.3d 279, 286-88 (5th Cir. 2012),
the Fifth Circuit concluded that Opulent Life Church
demonstrated standing to pursue its claim that enactment
of a zoning district that directly prohibited churches in
the newly created district violated RLUIPA:
Opulent Life’s facial challenges are easily ripe.
First, they are fit for judicial decision because
they raise pure questions of law. See Triple
G Landfills, Inc. v. Bd. of Comm’rs, 977 F.2d
287 (7th Cir. 1992) (“This lawsuit . . . mounts a
facial attack upon the validity of the ordinance
itself . . . . The issues posed are purely legal
. . . . [T]he case is fit for judicial decision.”).
Second, Opulent Life would suffer hardship

22
if review were delayed. Before Holly Springs
amended its ordinance, Opulent Life already
faced considerable hardship absent immediate
judicial review. Compliance with Section 10.8
would have been onerous, and noncompliance
would have meant forfeiting the larger meeting
space Opulent Life has leased. Now Opulent
Life would suffer even more acute hardship
were review to be withheld. The amended
ordinance bans Opulent Life from its leased
property. Each day that passes without Opulent
Life being able to occupy its new building
is a day in which its religious free exercise
is curtailed. See 42 U.S.C. § 2000cc–5(7)(B)
(“The use ... of real property for the purpose
of religious exercise shall be considered to be
religious exercise” under RLUIPA.). Opulent
Life’s facial challenges are ripe and that suffices
for us to decide the merits of this interlocutory
appeal.
697 F.3d at 286-88. Significantly, and directly contrary to
the Second Circuit’s decision, the Fifth Circuit held that
“even assuming arguendo that Williamson County’s finaldecision rule applies to Opulent Life’s claims, it presents no
barrier to our adjudicating Opulent Life’s facial challenges
to the ordinance. The Supreme Court has held Williamson
County to be inapplicable to facial challenges.” Opulent
Life Church, 697 F.3d at 287 (footnote omitted) (citing Yee
v. City of Escondido, 503 U.S. 519, 533-34 (1992).
Sixth Circuit: The Sixth Circuit held that a religious
order’s RLUIPA claims related to its use as a residence
of a house in a residential neighborhood—in which several

23
fathers and brothers of the order lived, conducted private
daily masses, and hosted regular Bible studies with
attendance ranging from five to fifteen individuals—
were not sufficiently ripe because they had “not gone to
the zoning board to determine whether the ordinances
require it to submit a site plan” nor sought a variance.14
Miles Christi Religious Order v. Twp. of Northville, 629
F.3d 533, 535, 538, 541 (6th Cir. 2010). See also Grace
Community Church v. Lenox Township, 544 F.3d 609
(6th Cir. 2008) (dismissing claims based on ripeness even
though township revoked a special use permit because “the
Church made no effort to resolve the dispute locally”). The
Sixth Circuit reached that conclusion despite the fact that
the township had engaged in various enforcement actions
(including threatening to ticket vehicles, conducting
surveillance on the order, recording license plates, and
issuing a ticket for a zoning violation) but dismissed
such harms as merely the “first whiff of governmental
insensitivity . . . .”15 Id. at 540.
Yet even the Sixth Circuit did not go so far as the
Tartikov court in requiring the plaintiff to petition for a

14. Chief Judge Batchelder dissented, believing that the
final decision requirement was met because of the township’s
Director of Community Development’s determination that “Miles
Christi had intensified the use of its property” and the subsequent
enforcement action. Id. at 542. She also alternatively determined
that the Order suffered an immediate injury because, inter alia,
it had canceled a religious event. Id. at 548-49.
15. Unlike Tartikov, where New York law made a variance
unavailable to Tartikov, the Sixth Circuit noted that “[t]he zoning
board may grant a variance to the religious order,” 629 F.3d at 538.

24
legislative change to an undisputed prohibition,16 having
concluded that, as presented by the religious order’s
complaint, it could not “‘know[] how far the regulation
goes,’ . . . and indeed which regulations apply[.]” Id. at 539
(quoting MacDonald, Sommer & Frates v. Yolo Cnty., 477
U.S. 340, 348 (1986)); see 697 F.3d at 541 (“Because Miles
Christi’s claims turn on the meaning of the ordinances,
they will not ripen until the zoning board weighs in”)
(emphasis added)). Here, there is no dispute as to which
regulations apply (the 2004 Law), and how far they go (they
ban adult student housing and unaccredited educational
institutions outright). Presumably, if the Sixth Circuit
had certainty as to these questions, its decision would
have come out differently. Nor would Miles Christi be
required “to cancel any Bible studies, masses or other
religious activities,” id. at 540, unlike Tartikov, which still
cannot operate its rabbinical college sixteen years after
purchasing the property. See id. at 541 (noting “suspension
of the state-law ticketing proceeding”).
Seventh Circuit: In Church of Our Lord & Savior
Jesus Christ v. City of Markham, Illinois, 913 F.3d 670,
677-79 (7th Cir. 2019), directly contrary to Tartikov,
the Seventh Circuit held that a challenge to “zoning use
classifications” would be ripe without any conditional use
16. In a later unpublished decision, that court raised the
question, but did not decide whether to go as far as the Second
Circuit did in Tartikov: “We decline to consider whether the
holding in Miles Christi covers situations where the plaintiff did
not seek a zoning amendment because new information has come
to light.” Tree of Life Christian Sch. v. City of Upper Arlington, 536
F. App’x 580, 582 (6th Cir. 2013) (emphasis added). In other words,
the Sixth Circuit contemplated the outrageous position adopted
by the Second Circuit that a party lacks Article III standing to
challenge the law unless they first petition the legislative body to
change that law.

25
permit or variance being sought. Id. at 677-78 (holding
that while a “variance might alleviate burdens imposed
by the city’s parking regulations, . . . it does not address
zoning use classifications, which are the subject of this
lawsuit,” and that applying for a conditional use permit
“would [not] address . . . the church’s primary contention
that operating a church is a permitted use” 17 ). The
church’s main contention was that the zoning ordinance
did not permit church uses by right anywhere within the
jurisdiction, but only with a conditional use permit. Id. at
672-75. The restriction in this case is even more severe,
as the proposed use is not permitted at all within the
Village.18
Ultimately, the Seventh Circuit concluded that “the
church’s claims satisfy Williamson County’s final decision
17. The Seventh Circuit did not suggest that consideration
of the availability of a conditional use permit has no place in a
RLUIPA action, as it may be relevant to the issues of liability and
damages. Id. at 679. The availability of a conditional use permit,
however, does not render a challenge to the zoning ordinance
itself “unripe.”
18. The court noted that, “[a]lthough [it has] not addressed
this specific question, [it has] declined to apply Williamson
County’s final decision test to other non-Takings Clause challenges
to local zoning codes,” id. at 678, while also noting that the Second,
Sixth and Ninth Circuits have applied Williamson County to
RLUIPA claims. Id. (noting conflict between Temple B’Nai Zion,
Inc. v. City of Sunny Isles Beach, 727 F.3d 1349, 1357 (11th Cir.
2013); Roman Catholic Bishop of Springfield v. City of Springfield,
724 F.3d 78, 92 (1st Cir. 2013); Opulent Life Church v. City of
Holly Springs, 697 F.3d 279, 287 n.7 (5th Cir. 2012); and Guatay
Christian Fellowship v. Cty. of San Diego, 670 F.3d 957, 976 (9th
Cir. 2011); Miles Christi Religious Order v. Twp. of Northville, 629
F.3d 533, 537-38 (6th Cir. 2010); Murphy v. New Milford Zoning
Comm’n, 402 F.3d 342, 352 (2d Cir. 2005)).

26
test, even if it does apply” because the city made a final
decision regarding the church’s zoning use classification.
Id. at 678. As here, however, “there is no ambiguity
about the city’s interpretation on the” relevant zoning
classification. Id.; see id. at 678-79 (“Since 2012, the
city has always taken the position that churches are a
conditional use in the R-3 districts, and nothing in the
record or the parties’ arguments suggests the city might
reconsider that interpretation.”).
Ninth Circuit: In Guatay Christian Fellowship v.
Cty. of San Diego, 670 F.3d 957, 979-83 (9th Cir. 2011), the
Ninth Circuit, applying Williamson County, held that a
church was required to apply for a “use permit” prior to
its RLUIPA claims being considered “ripe.”19 The Ninth
Circuit found persuasive that “the County has the power
to grant the permit that the Church needs, . . . .” Id. at
980. Here, Pomona lacks such power to permit Tartikov’s
use, yet the Second Circuit still required the submission
of some unspecified “proposal.”
As in Miles Christi Religious Order, supra, in
Guatay Christian Fellowship, the Ninth Circuit also
19. It is unclear what the Ninth Circuit understood itself to
be doing:
Because we today apply the final decision ripeness
requirement outlined in Williamson County to the
Church’s RLUIPA claims, determining them to be
premature for lack of a final decision by the County,
we need not decide whether the Church’s claims are
unripe as a matter of prudence or of constitutional law.
Id. at 980 (noting that, while this Court treated the final decision
requirement outlined in Williamson County as a matter of
prudential ripeness, the Ninth Circuit treats it as a matter of
“both Article III and prudential concern”).

27
found relevant the fact that the parties’ religious exercise
was not presently being impeded. See Guatay Christian
Fellowship, 670 F.3d at 979 (“the Church here has not
alleged a colorable argument of immediate injury: it
did not need to vacate the premises upon receipt of the
County’s communications, and it is currently enjoying use
of the building for the pendency of this suit”).
In contrast with the Seventh Circuit in Church of Our
Lord & Savior Jesus Christ, supra, and in contrast with
the Eleventh Circuit in Midrash Sephardi, Inc. v. Town of
Surfside, 366 F.3d 1214 (11th Cir. 2004), infra, the Ninth
Circuit held that the existence of enforcement actions against
the church did not render the matter “ripe” for adjudication.
See Guatay Christian Fellowship, 670 F.3d at 980-81 (holding
that the “County’s ‘cease and desist orders’” were insufficient
to satisfy Williamson County’s “final decision requirement”).
Nor was the financial burden imposed sufficient to establish
“ripeness,” as it was in Opulent Life. Id. at 981-82 (“Although
the Church’s alleged financial straits are lamentable, this is
no fault of the County’s and is no reason for us to except the
Church from the obligations of all Use Permit applicants.”).
Such conflicting holdings further demonstrate the need for
review.20
20. The Ninth Circuit’s “futility” discussion demonstrates
further disarray on the subject. On one hand, it recognized the
concept of futility described in Williamson County as “refer[ring]
to conditions that make the process itself impossible or highly
unlikely to yield governmental approval of the land use that
claimants seek—such as government obstinacy or where the only
governmental body to which claimants can appeal is unable to
authorize claimants’ desired land use.” Id. at 981. On the other,
it then appeared to go beyond Williamson County to eliminate
futility as an exception at all:

28
Eleventh Circuit: The Eleventh Circuit, in Midrash
Sephardi, Inc. v. Town of Surfside, 366 F.3d 1214 (11th
Cir. 2004), did not mention, let alone apply, Williamson
County in holding that Jewish congregations had standing
to challenge (under both the Equal Terms and Substantial
Burdens provisions of RLUIPA) a zoning ordinance that
excluded their use from specific zoning districts (again,
similar to Tartikov 21), despite their lack of any valid
attempt to apply for a permit or variance:
Surfside denied a Midrash application for
a special use permit, and denied Midrash’s
application for a zoning variance to operate in
its current location because Midrash failed to
provide written permission from [the owner].
Midrash did not appeal either denial, nor did
it seek [the owner’s] permission to re-apply for
either a special use permit or a variance.
. . . . Young Israel has never attempted to obtain
a CUP or a variance.
Finally, even if the Church had made a sufficient
“futility” argument, Ninth Circuit jurisprudence
in this area still does not excuse permit-seekers
who fall into this exception from the final decision
requirement from submitting at least one complete
permit application.
Id. at 982 (citing Herrington v. County of Sonoma, 857 F.2d 567,
569 (9th Cir. 1988)). This final statement falls in line with the
Second Circuit’s decision, as both Circuits would appear to require
a plaintiff to engage in a futile and pointless effort to seek relief
that a local government is not empowered to grant.
21. Unlike in Tartikov, however, Surfside did permit the use
in one other zoning district, the RD-1 district.

29
Midrash Sephardi, Inc., 366 F.3d at 1220-21 (footnotes
omitted).
Surfside argues that the congregations lack
standing to assert that the SZO violates their
constitutional rights because neither Midrash
nor Young Israel has attempted to locate
property in the RD-1 district, nor has either
synagogue applied for a CUP or received OSB’s
permission to do so. Surfside’s argument misses
the point of the congregations’ contention:
even if a “suitable property” existed in RD–1
district, the congregations believe they have a
legal right to remain in the business district.
Surfside has already sought to enforce §
90–152 against the congregations in an earlier
state court action. In the instant action,
Surfside seeks an injunction prohibiting the
congregations from continuing at their current
location, as well as an imposition of civil
penalties. As a result of Surfside’s attempts to
enforce the provisions of § 90–152 against them,
the congregations have suffered the requisite
injury for standing purposes. We find that the
congregations have standing to challenge the
application of business district regulations
outlined in SZO § 90–152.
Id. at 1223-24 (footnote omitted). The Eleventh Circuit’s
decision is not only in conflict with that of the Second
Circuit in Tartikov, but also with the Second Circuit’s
earlier decision in Murphy v. New Milford Zoning
Comm’n, 402 F.3d 342 (2d Cir. 2005).

30
Nine years following Midrash Sephardi, the Eleventh
Circuit revisited these issues in a case that presented
a similar factual scenario to Roman Catholic Bishop,
supra. In Temple B’Nai Zion, Inc. v. City of Sunny Isles
Beach, 727 F.3d 1349, 1357 (11th Cir. 2013), the court found
that a plaintiff’s claims that “the mere enactment of the
resolution declaring it to be a historic landmark violates
RLUIPA, [the Florida Religious Freedom Restoration
Act], and the Constitution” were ripe for review. As the
court explained:
In other words, the Temple alleges an injury
stemming from the City ’s initial act of
designating it to be a historic site, not from
the application of any land use regulation to
its property.
Id. at 1357-58. Further, the court declined to apply
Williamson County to the temple’s RLUIPA claim,
holding that “staying our hand would do nothing but
perpetuate the plaintiff’s alleged injury.” Id. at 1357;
see also id. (“we think it an inappropriate tool for the
specific facts presented here”). The court held, rather, that
“[i]n such cases, we think traditional notions of ripeness
provide the appropriate mode of analysis, and so we
apply them here.” Id. Finally, the court recognized that
“Williamson County’s finality principles do not apply to
facial claims that a given regulation is constitutionally
infirm. See Opulent Life Church v. City of Holly Springs,
697 F.3d 279, 287 (5th Cir. 2012) (‘The Supreme Court
has held Williamson County to be inapplicable to facial
challenges.’ (citing Yee v. City of Escondido, 503 U.S. 519,
533-34 (1992)).” Id. at 1359 n.6.

31
Third Circuit: In an unpublished decision, 2 2
Congregation Anshei Roosevelt v. Planning & Zoning
Bd. of Borough of Roosevelt, 338 F. App’x 214, 218-19
(3d Cir. 2009), the Third Circuit gave fair indication of
its future direction in answering these questions as they
arise in RLUIPA cases. The Third Circuit employed a
standard whereby an additional application for a variance,
despite a final agency determination that a particular use
was in violation of the zoning ordinance, 23 might or might
not be required to establish a “ripe” case or controversy,
depending on the facts:
While it is true that the plaintiffs in Murphy
and Taylor did not seek any review of an initial
land use decision, as the Congregation did here,
it does not necessarily follow that a decision by a
board on appeal is a final determination ripe for
federal review. Nor can we say that a variance
application is always necessary to satisfy the
finality requirement. The cases are fact-specific.
22. Under the Third Circuit’s internal procedure rule 5.7,
3d Cir. R. 5.7, Congregation Anshei Roosevelt is not controlling
precedent, but it still provides a strong indication as to that
Circuit’s future direction.
23. The court stated that “the Board did not determine that
the Yeshiva was not a house of worship and thereby a violation
of the ordinance,” yet it did in fact make a final, appealable
“determination that the Yeshiva represents an intensification
of use requiring a variance.” Id. at 217. That the yeshiva could
then have additionally applied for a variance did not change the
fact that a final determination was made. At the very least, the
concrete harm of being required to engage in an administrative
process that may or may not have been discriminatory or overly
burdensome—the type of harm recognized by the Fifth and
Eleventh Circuits—did not persuade the court otherwise.

32
Id. at 217 n.4. In that case, however, the Third Circuit
required the plaintiff to seek a variance:
The factual record is not sufficiently developed
to decide fully the RLUIPA claim here, and
the Board has not issued a definitive position
as to the extent the Yeshiva can operate on the
synagogue property. If the Congregation and
the Yeshiva apply for a variance, the Board
would develop a record to determine the
potential effect of the use, and whether (and,
if yes, to what extent) the use is permitted. . . .
The Board may decide to allow the Yeshiva to
operate fully, it may place some restrictions,
or it may deny any operation of the Yeshiva on
the property.
Per m itt i ng the Boa rd t o reach a f i na l
determination on a variance application
may resolve the constitutional issues the
Congregation alleges. For starters, it is not
apparent that the Congregation has suffered
any constitutional injury simply because it must
apply for a variance; indeed, it appears the
Yeshiva is still operating at the synagogue. Put
simply, we do not know the extent, if any, of the
Congregation’s alleged RLUIPA injury without
a final determination as to whether the Yeshiva
will be permitted on the property.
Id. at 218-19. The Third Circuit, in language reminiscent
of Williamson County, concluded that “the Board has not
issued a definitive position as to the extent the Yeshiva can
operate on the synagogue property,” because the Yeshiva
had not applied for a variance. Id. at 218. Although the

33
Third Circuit required the plaintiff to pursue variance
relief, it was clear that such relief might have been
available to the yeshiva. Id. at 217. In stark contrast, in
Tartikov, no variance, special permit, or other application
could be granted for the use.
Conclusion
Faithful to the congressional command that RLUIPA
claimants may prosecute their claims on satisfaction of
Article III standing principles, the First, Fifth, Seventh,
and Eleventh Circuits have complied with their “virtually
unflagging” “obligation” “to hear and decide a case . . .
.” In doing so, these Circuit Courts have not interposed
additional, extra-statutory and extra-constitutional
obligations on RLUIPA claimants. By contrast, and
departing from the holdings of those Circuits, the Second,
Third, Sixth, and Ninth Circuits have disregarded the
intent of Congress that RLUIPA claimants can establish
their standing to assert their claims by reference only to
Article III principles governing standing.
Among the decisions of the Second, Third, Sixth, and
Ninth Circuits, Tartikov represents the zenith of judicial
hostility toward claims involving religious land use. 24 The
24. Despite recognizing that good ground existed for
Tartikov to allege, and the District Court to find, that the
Village acted on a prohibited, anti-religious bias directed at the
Orthodox Hasidic community with respect to the 2004 Law, the
Second Circuit panel expressed the shocking view that Pomona’s
bias resulted from pressures the Hasidic community applied to
the housing resources of the region. See Tartikov, App. 67a-68a
(“[W]e are mindful that municipalities of Rockland County have
faced significant development pressure from Hasidic people
in recent years. It is easy to see how bias could play a role in
influencing a municipality’s decision whether to allow a religious

34
Second Circuit’s decision presents a critical threat to
religious freedom. Under Tartikov, a RLUIPA claimant
can obtain no judicial relief unless, first, it throws itself
into a pursuit of legislative repeal of the challenged ban
from a hostile governmental body. Regardless of the
Second Circuit’s intent in imposing an extra-textual
standing component, the effect of such a hurdle is, without
doubt, to eliminate religious land uses through lengthy
and resource-draining efforts otherwise unnecessary to
establish Article III standing.
The petition for a writ of certiorari should be granted.
Respectfully submitted,
Joseph A. Churgin
Donna C. Sobel
Savad Churgin
55 Old Turnpike Road,
Suite 209
Nanuet, New York 10954
(845) 624-3820

John G. Stepanovich
Counsel of Record
James M. Henderson, Sr.
Of Counsel
Stepanovich Law, PLC
618 Village Drive, Suite K
Virginia Beach, Virginia 23454
(757) 410-9696
john@stepanovichlaw.com

Roman P. Storzer
Storzer & A ssociates, P.C.
1025 Connecticut Avenue NW,
Suite 1000
Washington, DC 20036
(202) 857-9766
Counsel for Petitioners

institution to undertake a large construction project. But we
must be cognizant also that municipalities may resist development
pressures for legitimate reasons unrelated to discriminatory
animus”) (emphasis added). Such “victim blaming” disregards the
Village’s responsibility for its discriminatory bias and for giving
effect to that bias.

